          AUDIT OF THE CIVIL DEBT COLLECTION
               RECONCILIATION PROCESS

                            EXECUTIVE SUMMARY

       The Office of the Inspector General (OIG) completed a follow up audit
to the OIG’s Audit of the Office of Debt Collection Management’s
Implementation of the Collection Litigation Automated Support System,
Report Number 01-15. In that audit, which was issued on July 3, 2001, we
identified discrepancies between civil debt collections reported by the United
States Attorneys (USAOs) and the litigating divisions with the Department of
Justice (Department) Treasury account deposits for FY 1998 and FY 1999, as
reported by the Justice Management Division’s (JMD) Debt Accounting
Operations Group (DAOG); and inconsistencies between the fiscal year
ending civil debt balance and the subsequent year’s beginning civil debt
balance reported by the Executive Office for United States Attorneys
(EOUSA) for those fiscal years.

       Civil debt that has been established as an amount owed the United
States Government may be referred to the Department for collection from
other federal agencies, or may originate from litigation at the Department.
Civil debt is collected through litigation by the 94 U.S. Attorneys (USAOs)
and the 5 litigating divisions within the Department that have authority to
collect debts through litigation. Additionally, civil debt may be collected by
Private Counsel offices1 within certain judicial districts. The Office of Debt
Collection Management (DCM) is the office within JMD that annually reports
the status of the Department’s collection efforts. The DCM is responsible for
overseeing the collection of debt and developing programs to support the
collection of debts by USAOs and the litigating divisions within the
Department.

       In this audit we attempted to determine the causes of the differences
between collections reported by the USAOs and the litigating divisions and
Treasury deposits reported by the DAOG. Differences of $98 million and
$220 million were identified in FY 1998 and FY 1999, respectively. We also
attempted to determine the reasons for the inconsistencies between the
EOUSA’s beginning year civil debt balances and prior year ending balances
for FY 1999 and FY 2000. We found that the Department’s civil debt
collection reporting process needs to be strengthened. Collection activity

1
        The Private Counsel Program allows the Department to contract with private law
firms to litigate and collect debts.
reported by the USAOs and the litigating divisions are not reconciled with
amounts reported by the DAOG as deposits in the Department’s Treasury
Account. Additionally, the EOUSA is not adequately reviewing monthly
extracts from the Tracking Assistance for the Legal Office Network prepared
by USAO districts before compiling the national level report to ensure that
reported beginning year balances of civil debt agree with the prior year
ending balances.

       Based on the audit results, we made two recommendations. We
recommended that the Acting Assistant Attorney General for Administration
ensure that procedures were implemented to reconcile amounts reported as
collected by the USAOs and the litigating divisions against the amounts
reported as collected in the Department’s Treasury Account. We also
recommended that the Director, EOUSA ensure that data extracts were
adequately reviewed prior to preparation of summary reports.

     Our audit objectives, scope, and methodology are contained in
Appendix I.
                           TABLE OF CONTENTS
                                                                                     Page
INTRODUCTION ..........................................................................1

FINDING AND RECOMMENDATIONS ...............................................2
RECONCILIATIONS OF DEBT COLLECTIONS NEEDED ........................2
RECOMMENDATIONS ...................................................................... 12
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY................ 13

APPENDIX II - JUSTICE MANAGEMENT DIVISION RESPONSE TO THE
DRAFT REPORT ......................................................................... 14

APPENDIX III - EXECUTIVE OFFICE FOR UNITED STATES ATTORNEYS
RESPONSE TO THE DRAFT REPORT .............................................. 17

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
REPORT ................................................................................... 20
                                 INTRODUCTION
      The Department of Justice (Department) is the federal government’s
principal litigator when federal loans and federally guaranteed loans are in
default and cannot be collected through conventional means. Litigation and
debt collection authority is assigned to the U.S. Attorneys Offices (USAOs)
and the litigating divisions2 within the Department. The Office of Debt
Collection Management (DCM) is the office within the Department that
annually reports the status of the Department’s collection efforts. The DCM
is responsible for overseeing the collection of debt and developing programs
to support the USAOs and the litigating divisions within the Department
regarding the collection of debts. In this regard, the DCM oversees the
Nationwide Central Intake Facility (NCIF) and the Debt Accounting
Operations Group (DAOG), and is currently developing and providing
automated debt collection and litigation support.

      This audit supplements the Office of the Inspector General’s (OIG),
Audit of the Office of Debt Collection Management’s Implementation of the
Collection Litigation Automated Support System, Report Number 01-15 (the
CLASS audit), issued on July 3, 2001. That report identified:

         •   discrepancies between civil debt collections reported by the USAOs
             and the litigating divisions vis-à-vis the Department’s Treasury
             account deposits for FY 1998 and FY 1999 as reported by the
             DAOG; and

         •   inconsistencies between the fiscal year ending civil debt balance
             and the subsequent year’s beginning balance reported by the
             Executive Office for United States Attorneys (EOUSA) for those
             fiscal years.

       The purpose of the current audit was to identify the causes of the
differences between collections reported by the USAOs and the litigating
divisions and Treasury deposits reported by the DAOG. Additionally, we
determined the reasons for the inconsistencies between the EOUSA’s
beginning year’s civil debt balances and the prior year’s ending balances for
FY 1998 and FY 1999. The details of our work are contained in the Finding
and Recommendations section of the report. Our audit scope and
methodology are contained in the Appendix at page 13.



2
        The USAOs and the following litigating divisions have debt collection responsibilities:
Civil, Civil Rights, Antitrust, Tax, and Environment and Natural Resources.


                                           -1–
              FINDING AND RECOMMENDATIONS
        RECONCILIATIONS OF DEBT COLLECTIONS NEEDED

        The Department’s civil debt collection reporting process needs
        strengthening. Amounts reported as deposited for FY 1998 and
        FY 1999 by components responsible for collecting civil debt did
        not reconcile to amounts reported as deposited in the Treasury
        account by the DAOG. The components reported $98,295,401
        and $219,788,935 more than that reported by the DCM based on
        DAOG input for FY 1998 and FY 1999, respectively. Further, the
        EOUSA did not ensure that year-end reported civil debt balances
        were consistent with the beginning balances for the subsequent
        years. In our judgment the Department needs to implement a
        process that reconciles amounts reported by components as
        collected and deposited with the amounts reported by the DAOG
        as deposits in the Department’s Treasury account. Also, the
        EOUSA needs to ensure that a year’s beginning civil debt balance
        is consistent with the prior year’s ending balance. Absent these
        improvements, the Department has no assurance that civil debt
        collections and balances reported in the Department’s Annual
        Litigation Reports are reliable.

      We focused our audit on reported activities for FY 1998 and
FY 1999 based on the coverage and reported deficiencies in our prior
CLASS audit. The collecting components reported to the DCM amounts
that they collected and sent for deposit as well as deposits3 reported to
them by the DAOG. Accordingly, the following table provides an
overview of the reported activity for the two fiscal years as provided in
the CLASS audit report.

            Debt Collected and Deposited for FY 1998 and FY 1999
                           from the CLASS Audit Report
    Civil Debt Collections and Deposits     FY 1998        FY 1999
    Per DCM                             $1,123,016,503 $1,376,652,215
    Per Collecting Components           $1,221,311,904 $1,596,441,150
    Difference                          $ 98,295,401 $ 219,788,935
Source: OIG Audit Report “Office of Debt Collection Management’s
Implementation of the Collection Litigation Automated Supported System”



3
       Represent amounts deposited to the Department’s account through channels other
than the collecting components.
                                       -2–
      The differences in the amounts reported can be attributed to a series
of events including:

   •   the DCM using collections reported by the DAOG rather than collection
       reported by the USAOs and litigating divisions,
   •   the DCM not receiving complete information from the USAOs and
       litigating divisions to eliminate duplicate reporting of collections, and
   •   the DCM not reconciling collections reported by the USAOs and
       litigating divisions with the collections reported by the DAOG.

     But before discussing the events, it is essential to understand the
process of debt collection to deposit to reporting.

Overview of the Collection and Deposit Process

       Civil debt is collected by the 94 USAOs and the 5 litigating divisions
within the Department. Additionally, Private Counsel Offices in fifteen
judicial districts supplement the efforts of the USAOs by collecting
outstanding debts in smaller dollar cases.

       The NCIF is the initial intake point at the Department for civil debts
that are $1 million or less. Debts greater than $1 million are referred
directly to the litigating division that has the authority to collect. After debts
are referred to the NCIF, they are entered into the mailroom receipt
database, and after screening for content are forwarded to the appropriate
USAO district based on the zip code of the debtor’s address.

     Collections may be received (1) directly by the division or USAO
responsible for the collection, (2) at one of the two lockboxes maintained by
the Department at the Bank of America, (3) by the DAOG, or (4) at the
Federal Reserve Bank in New York. Civil debt collections include:

   •   checks and money orders received directly from the debtor or at one
       of the Department’s two lockbox accounts at the Bank of America,
   •   checks drawn on foreign banks,
   •   electronic funds transfers,
   •   payments made by credit card, and
   •   collections through the TOP.

       When checks are received at the litigating divisions or USAOs, deposit
slips are prepared and the receipt sent to one of the two lockboxes at the
Bank of America. If the USAO is one of the nine USAO districts that have
migrated to CLASS, the deposit is sent to the NCIF lockbox. For the
remaining USAOs and for the litigating divisions, the deposit is sent to the
                                     -3–
DAOG lockbox. The bank transfers the funds daily to the Department’s
Treasury account at the Federal Reserve Bank.

      Checks received by the litigating divisions or USAOs that are drawn on
foreign banks are sent to the DAOG for processing. The DAOG sends these
checks to a financial institution for conversion from foreign to United States
currency, and the institution will forward the funds to the Department’s
account at Treasury. The receipt information is entered into the Debt
Module by the DAOG. Electronic Funds Transfers (EFTs), credit card
payments, and collections through the TOP are also processed by the DAOG.
The EFTs and credit card payments are received in the Department’s
Treasury account at the Federal Reserve Bank and entered into the FMIS
Debt Module by the DAOG. Delinquent debtor files are submitted to the
DAOG by the USAOs or litigating divisions and sent to the Treasury for
potential offsets. The Treasury offsets eligible funds owed to the debtor and
transfers the funds to the Department’s Treasury account at the Federal
Reserve Bank. Treasury sends a file with the offset information to the DAOG
for entry into the FMIS Debt Module.

       When deposits are received at the NCIF lockbox, the bank sends
copies of the checks received and the deposit slips or payment remittance
coupons to the NCIF, along with a list of the deposits received. The NCIF
verifies the copies against the list provided by the bank and enters the
collection data into CLASS. The CLASS data is transmitted to the DAOG,
where it is uploaded into the Debt Module of the Financial Management
Information System (FMIS). When deposits are received at the DAOG
lockbox, the bank enters the information from the deposit slips, payment
coupons, and transmittal documents into an electronic file, which is
transmitted to the bank’s Richmond, VA location. This file is retrieved by the
DAOG and uploaded into the Debt Module.

      The diagram on the following page illustrates the types of collections
and their flow to the Department’s account at Treasury.




                                   -4–
     Flow of Collections From Debtor to Department’s Account at
                              Treasury


     Debtor
     Paymen


     Checks Received
     by USAOs and
     Litigating
     Divisions

                                      Bank of
                                      America
     Checks mailed
     directly to                      NCIF Lockbox
     lockbox                          DAOG Lockbox




          Treasury                                               DOJ Account
          Offsets                                                At U.S. Treasury

        EFT’S




       Credit Card
       Payments
                                    Debt Accounting
      Foreign                       Operations
      checks                        Group



Reconciliation of Collections with Treasury

       On a daily basis, both the NCIF and the DAOG reconcile the copies of
the checks, deposit slips, and payment coupons received from the lockbox
with the list of deposits received from the lockbox to ensure that all deposits
were recorded in the electronic files received. The NCIF transmits an
electronic file to the DAOG, and the DAOG verifies the accuracy of this data
with deposit data in the Department’s account at Treasury. These electronic
files are then uploaded to the FMIS Debt Module (General Ledger). On a
monthly basis, the DAOG reconciles the balance of collections in the General

                                    -5–
Ledger for the NCIF and the DAOG with the balance in the Department’s
Treasury account. Each month, the USAOs and the litigating divisions must
verify their deposits to collections recorded in the Debt Module by the DAOG
and follow up with the DAOG on discrepancies identified. Neither the DAOG
nor the DCM reconciles deposits made by the USAOs or the litigating
divisions to the lockboxes because the current state of automation of the
civil debt collection process prevents this, and neither DCM nor DAOG has
access to required source documents. Instead, they rely on the USAOs and
the litigating divisions to verify that their collections are deposited and
recorded in the General Ledger.

Differences in Debt Collected and Debt Deposited

       Each quarter, the USAOs and the litigating divisions report their
collection activities to the DCM on Financial Litigation Reports (FLR). The
DCM compiles collection activity in worksheets that are used to prepare
quarterly and annual Department-wide FLRs. Although the collecting
components’ reports represent the book balances of collection activity, the
DCM reports the collection amounts provided by the DAOG. The DAOG
amounts represent the balances reported from the Treasury (bank balance).

        An official from the DCM informed us that they do not use the
collections reported by the collecting components because these amounts
may not be accurate. According to the DCM official, the amounts reported
as collected and deposited by the USAOs and litigating divisions may
include: (1) duplicate reporting, (2) collections received at creditor agencies,
(3) timing differences caused by deposits in transit at period end, and (4)
errors made when collection reports are prepared by the USAOs and the
litigating divisions. Instead, the DCM includes civil debt collections reported
by the DAOG in the Criminal and Civil Cash Collections Report (the Cash
Collections report). This report is cumulative and is prepared each month by
the DAOG to allocate debt collections for the USAOs and the litigating
divisions into the 94 USAO Judicial Districts. The DAOG prepares the report
from the Department’s general ledger to identify debt collection activity of
each USAO district. The Cash Collections Report does not identify collections
by collecting office. Each month, the DAOG reconciles the Cash Collections
Report to the general ledger to ensure that the report is accurate and all
collections are included.

        We reviewed the Department-wide FLRs and supporting worksheets for
FY 1998 and FY 1999 as well as the individual FLRs from the USAOs and
litigating divisions for the same periods. For FY 1998 and FY 1999, we
traced the civil debt collections reported by the DCM on the Department-
wide FLRs to the Cash Collections Report, noting agreement. We reviewed

                                    -6–
the monthly reconciliations that the DAOG prepared during FY 1998 and FY
1999. We determined that the DAOG reconciled all differences between the
Cash Collections Report and the General Ledger, and that the reconciling
adjustments were reasonable.

       For FY 1998 and FY 1999, we compared civil debt collections reported
on each individual FLR to the civil debt collections recorded by the DCM on
the supporting worksheets and determined that civil debt collections
recorded for the Civil Rights Division for FY 1999 was understated by
$800,000. We followed up with the DCM and the Civil Rights Division and
determined that the DCM had not used the final report submitted by the Civil
Rights Division when preparing its worksheet. The Civil Rights Division
report used by the DCM did not include an $800,000 EFT. We determined,
however, that the civil debt collections reported by DCM for FY1999 included
this collection.

       We reviewed the individual FLRs for FY 1998 and FY 1999 and
identified two instances of duplicate reporting of collections. In each fiscal
year, we found that the Civil Division had included collections made by the
USAOs in the cash collection total. We followed up with the Civil Division,
the EOUSA, and the DCM to determine if the collections made by the USAOs
and reported on the Civil Division’s FLRs would have resulted in duplicate
reporting of deposits.

       An official from the Civil Division confirmed that these deposits were
cash collections made by the USAOs in FY 1998 and FY 1999 for Civil
Division cases, and would have resulted in duplicate reporting of collections
if reported by the USAOs. An official from the EOUSA also confirmed that
these collections were reported as cash collections by the USAOs in those
fiscal years, and would have resulted in duplicate reporting of collections if
also included by the Civil Division. An official from the DCM told us that an
aggregate adjustment is made by the DCM to eliminate this duplicate
reporting, but that the DCM does not adjust the cash collected for an
individual reporting division. Further, the DCM advised that while they
request the USAOs and litigating divisions to identify duplicate reporting,
this request is not always complied with. We reviewed the supporting
worksheets for the FY 1998 and FY 1999 department-wide FLRs and
determined that an adjustment had not been made for these amounts.

        We compared the civil debt collections reported by the USAOs and the
litigating divisions on their FLRs with the civil debt deposits reported by the
DCM on the Department-wide FLR for FY 1998 and FY 1999. We reduced the
collections reported by the Civil Division for each year for the duplicate
reporting identified above. We also increased the collections reported by the

                                    -7–
Civil Rights Division for FY 1999 to include the $800,000 not included by the
DCM. Based on our adjustments, the unreconciled difference between civil
debt collected by the USAOs and the litigating divisions and the civil debt
reported as deposited in the Treasury decreased for both fiscal years. For
FY 1998, we determined that civil debt reported as deposited in the Treasury
was $28,068,554 more than the USAOs and the litigating divisions reported
as collected. For FY 1999 , we determined that civil debt deposits in the
Treasury were $88,804,842 less than collections reported by the USAOs and
the litigating divisions. The table below illustrates the results of the review.

               Difference in Debt Collected and Deposited
                          for FY 1998 and FY 1999
              Civil Debt Reported               FY 1998               FY 1999
  Deposited in Treasury by DCM                (a)    $1,123,016,503 $1,376,652,215
  Collected per the Collection                       $1,221,566,904 $1,596,441,150
  Components’ FLRs
  Adjusted Collection Balance                 (b)    $1,094,947,949 $1,465,457,057
  Unreconciled Difference             (a less b)     $ 28,068,554 $ (88,804,842)
Source: Financial Litigation Reports obtained from the DCM, the EOUSA, and
litigating divisions.

       DAOG officials offered that the causes for the unreconciled differences
included timing differences for deposits in transit at year end, returned checks,
and errors made when collections were recorded by USAOs and the litigating
divisions. The DAOG does not reconcile deposits reported in the Department-wide
FLR with the collections reported by the USAOs and litigating divisions because
the required level of automation is not in place, nor does the DAOG have access
to the source documents necessary to perform these reconciliations. Since
reconciliations were not performed, it was not possible to identify the nature of all
differences between collections and deposits.

       The CLASS audit report also indicated that inconsistencies existed between
the fiscal year ending civil debt balance and the subsequent year’s beginning
balance reported by the EOUSA. We also attempted to determine the cause for
this occurring.

Differences between Ending and Beginning Balances

       The EOUSA prepares a summary level FLR to report Debt Collection
activity for the USAOs. This summary FLR is prepared from collection data
maintained in the Tracking Assistance for the Legal Office Network (TALON)
system. The tables below illustrate the beginning and ending balances of
civil debt and the differences identified in our review of the FLRs for FY 1998,
FY 1999, and FY 2000.

                                    -8–
                 Fund Balance Comparison - FY 1998 to FY 1999
               Civil Debt                  Per EOUSA FLRs
    FY 1998 Ending Balance                         $1,633,692,526
    FY 1999 Beginning Balance                      $1,535,687,297
    Difference                                     $    98,005,229
Source: Financial Litigation Reports obtained from the EOUSA.

               Fund Balance Comparison - FY 1999 to FY 2000
                Civil Debt            Per Review of EOUSA FLRs
    FY 1999 Ending Balance                           $1,574,372,132
    FY 2000 Beginning Balance                        $1,568,685,515
    Difference                                      $     5,686,617
Source: Financial Litigation Reports obtained from the EOUSA.

       We met with officials from the EOUSA to determine the causes of the
differences, which were also identified in the CLASS audit4. The EOUSA
provided a memorandum that explained how the summary FLR is prepared
from TALON and the major cause of the difference between the FY 1998
ending balance of civil debt and the FY 1999 beginning balance of civil debt.

       The memorandum reported that beginning fiscal year balances are
calculated by adding the outstanding balances of all debts in the TALON
database at the start of the fiscal year, and ending fiscal year balances are
calculated by adding and subtracting from the beginning balance all valid
transactions during the period. An incorrect entry of $100 million was
identified by the Northern District of Texas during quality control testing of
the district’s migration to TALON. This error was corrected in December
1997 by changing the balance of the debt in TALON. While this corrected
the balance remaining on the debt in TALON, this was not a valid correcting
transaction because an offsetting transaction was not recorded. As a result,
the error correction was not included when the fiscal year (1998) ending
balance was calculated, and the error was carried in the summary report for
FY 1998. The beginning balance for FY 1999 was correctly calculated in the
summary report as explained above and did not include the $100 million
since it had been eliminated from the debt balance. This resulted in a $100
million discrepancy between the ending balance for FY 1998 and the
beginning balance for FY 1999. The memorandum further explained that the
current EOUSA policy for correcting transactions avoids these errors by


4
       We identified a $51,000 difference in the FY 2000 beginning balance of Civil Debt on
the FLR obtained from the EOUSA and the FY 2000 beginning balance of Civil Debt in the
CLASS Audit Report.
                                         -9–
requiring a second transaction that will offset the original incorrect
transaction.

       The EOUSA also discovered that certain invalid finance codes were
being used by the USAOs when entering transactions. While these
transactions will be accepted by the TALON system and will change the
records within TALON, they will not be recognized when the summary
reports are prepared. The EOUSA also found a problem with the function
that is used to invalidate a transaction. The EOUSA believes that these
problems may have contributed to the differences in the summary reports,
and the EOUSA is working to correct the problem with the ”invalidate
transaction” function. The EOUSA is also developing edits to prevent the use
of the invalid codes.

      Based on this explanation, we revised our assessment of the FY 1998
ending balance of civil debt and the FY 1999 beginning balance of civil debt
to take into account the $100 million error described in the EOUSA memo.
As indicated in the table below, the difference was reduced to $1,995,259.

           Description               Amount per Review of EOUSA FLRs
FY 1998 Ending Balance                                $1,633,692,526
Error identified by the EOUSA                         $ 100,000,488
Revised FY 1998 Ending Balance                        $1,533,692,038
FY 1999 Beginning Balance                             $1,535,687,297
Revised Difference                                    $     1,995,259
Source: Financial Litigation Reports and memoranda obtained from the EOUSA.

      EOUSA officials explained that the differences also occurred because
the monthly extracts from TALON prepared by USAO districts were not
routinely reviewed by the EOUSA for deficiencies prior to being compiled by
the EOUSA for their summary level reporting. The EOUSA uses a system
called the Transactional Informational Government Accounting System
(TIGAS) to compile the information in TALON. The EOUSA has been using a
contractor to review the TIGAS system and to determine the causes of the
problems for FY 2001. The contractor identified the following causes of the
errors:

   •   Extract (data) files are sent in which are incorrectly named; as a
       result, the transfer process will not work properly,
   •   Extract files sent are not for the correct (current) month,
   •   The “transfer data files” function in TIGAS malfunctions, resulting in
       incomplete or partial files,



                                    - 10 –
   •   Error files created by the system (oracle) are not being reviewed, and
       therefore erroneously entered data is not being identified and
       corrected, and
   •   Current extract files are not being sent in; the EOUSA is not ensuring
       that the latest data has been sent in.

      EOUSA officials could not account for the remaining differences
between the ending balance of civil debts for FY 1998 and the beginning
balance of civil debts for FY 1999, or for the differences between the ending
balances of civil debts for FY 1999 and the beginning balance of civil debts
for FY 2000. They stated that a similar analysis of the differences could not
be performed for these fiscal years because the individual monthly TALON
data extracts for FY 1998, FY 1999, or FY 2000 are not retained by EOUSA.
Further, specific monthly data is not available from TALON after its
extraction from TALON. This is a limitation of TALON because available data
from TALON is cumulative. They believe, however, that the causes identified
in the analysis of the FY 2001 data are also responsible for the differences in
the prior years.

      The explanation of the causes for the differences between the ending
and beginning balances that was provided by the EOUSA is plausible.
However, because data extracts were not available from TALON, we were
not able to test the validity of the EOUSA’ s analysis.

Conclusion

      Generally, a strengthened reconciliation process can remedy the
reporting inconsistencies. On a quarterly basis, the DCM should reconcile
quarterly collection activity reported by the USAOs and litigating divisions
with the deposit information provided to them by the DAOG. This would
ensure that the amounts reported by the collecting components are
consistent with the amounts reported by the Treasury to the DAOG. Then, if
the EOUSA ensures that it uses the prior year’s ending balance as the
succeeding year’s beginning balance, it could make adjustments thereto
based on a review of the extracts from TALON. These improvements would
bolster the validity and reliability of the Department’s debt collection
process.

Views of Responsible Officials

       Office of Debt Collection Management

      Officials from DCM generally agreed with our analysis and concurred
with our recommendation. However, DCM officials advised us that with the

                                   - 11 –
current state of automation of civil debt collection, they would only be able
to advise the litigating divisions and USAOs when discrepancies existed,
rather than actually reconcile the differences. Additionally, while they
request that USAOs and litigating divisions identify duplicate reporting of
collections, they cannot compel them to do this and may not receive
complete information. As a result, they are unable to adjust collection
reported to eliminate duplicative reporting. We have incorporated the
comments from DCM officials in the text of the report where appropriate.

      Executive Office for the United States Attorneys

       Officials from EOUSA generally agreed with our analysis and concurred
with our recommendation. EOUSA officials advised us that safeguards were
put in place in October of 2000 to ensure that monthly TALON extracts are
adequately reviewed prior to loading into TIGAS and compilation into
summary level reporting. We have incorporated the comments from EOUSA
officials in the text of the report where appropriate.

Recommendations

We recommend that the Acting Assistant Attorney General for
Administration:

1.    Ensure that procedures are instituted to reconcile amounts reported as
      collected by the United States Attorneys and the litigating divisions
      against the amounts reported as collected and deposited in the
      Department’s Treasury account.

We recommend that the Director, EOUSA:

2.    Ensure that data extracts are adequately reviewed prior to preparation
      of the summary report.




                                   - 12 –
                                                              APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of this audit was to follow up on the OIG’s Audit of the
Office of Debt Collection Management’s Implementation of the Collection
Litigation Automated Support System. That audit identified discrepancies
between: (a) civil debt amounts reported as collected by the USAOs, the
NCIF, and the litigating divisions versus civil debt reported as deposited in
the Department’s account at Treasury for FY 1998 and FY 1999, and (b) the
fiscal year ending balance and subsequent year beginning balance of civil
debt reported by the EOUSA for FY 1998, FY 1999, and FY 2000.

      The scope of the audit was limited to identifying the reasons for these
discrepancies. As such, we excluded from the scope of the audit a review of
compliance with laws and regulations since this was not significant to
address the audit objectives. Therefore, we reviewed:

   •   the reporting and reconciliation process for civil debt collection
       performed by the USAOs, and the litigating divisions for FY 1998 and
       FY 1999;
   •   the Department-wide FLRs and supporting worksheets for FY1998 and
       FY 1999, obtained from the DCM;
   •   the FLRs for FYs 1998, 1999, and 2000 obtained from the EOUSA, the
       NCIF, and the litigating divisions; and
   •   the monthly reconciliation worksheets prepared by the DAOG for
       FY 1998 and FY 1999.

       We also interviewed officials from the DCM, the EOUSA, the NCIF, and
the litigating divisions, to obtain information on their reporting polices and
reconciliation practices, and to identify potential causes for the differences
between their reported cash collections and the collections reported as
deposited by the DAOG.

     We performed our audit in accordance with Government Auditing
Standards and, accordingly, included such tests of the records and
procedures as we deemed necessary to achieve our objectives.




                                   - 13 –
                               APPENDIX II

JUSTICE MANAGEMENT DIVISION RESPONSE TO
            THE DRAFT REPORT




                 - 14 –
- 15 –
- 16 –
                              APPENDIX III

   EXECUTIVE OFFICE FOR UNITED STATES
ATTORNEYS RESPONSE TO THE DRAFT REPORT




                - 17 –
- 18 –
- 19 –
                                                              APPENDIX IV

   OFFICE OF THE INSPECTOR GENERAL AUDIT
 DIVISION ANALYSIS AND SUMMARY OF ACTIONS
         NECESSARY TO CLOSE REPORT

      The JMD and the EOUSA responses to the audit (APPENDIX II and III,
respectively) included actions that JMD and EOUSA intend to take to close
the audit recommendation directed to them. Below is our analysis of the
responses received and actions necessary to close the report.

1. Resolved. In order to close this recommendation, please provide us with
   a copy of the procedures implemented requiring the USAOs and litigating
   divisions to reconcile their cash collections reported on their FLRs with the
   amounts reported as collected in the Department’s Treasury Account.

2. Resolved. In order to close this recommendation, please provide us with
   a copy of the procedures implemented to prevent data extract load errors
   and financial adjustment errors.




                                   - 20 –
